                               UNITED STATES DEPARTMENT OF EDUCATION
                                              OFFICE OF INSPECTOR GENERAL




                                                   AUG 2 2002 


                                                                                 Control Number ED-OIG/A05-B0011
                                      r:-
Dr. T.C. Wallace, Superintendent
Mount Clemens Community Schools
167 Cass Avenue
Mount Clemens, MI 48043

Dear Dr. Wallace:

This Final Audit Report presents the results of our audit of the Title I, Part A, Targeted
Assistance Schools Grant (Grant) administered by the Mount Clemens Community Schools
District (District) for the July 1, 1997, through June 30, 1998, award year.

                                                AUDIT RESULTS

The District did not comply with applicable regulations in administering the Grant. During the
1997/98 award year, the District used Grant funds to supplant $110,593 in State and/or local
funds to pay salaries for 13 kindergarten teacher assistants; spent $10,167 for goods and services
unrelated to the Grant objectives; and did not provide adequate support for $338,571 spent on
additional goods and services. Details of these costs are shown in Attachment 1, Schedule of
Accepted, Questioned, and Unsupported Costs. The District concurred with recommendations 1,
2, and 4 by agreeing to return $110,593 in questioned Grant funds used to supplant State and/or
local funding for 13 kindergarten teacher assistants in the all day kindergarten program; $10,167
applicable to questioned expeq,ditures unrelated to the Grant objectives; and to obtain periodic
certifications in the future. The District did not concur with recommendation 3, which relates to
the $338,571 in unsupported expenditures. The District's comments and our response are
addressed in the Recommendation section ofthis report. The District's written comments are
included as Attachment 2 to this report. Because of the voluminous number of attachments
included in the District's comments, we have not included them with Attachment 2. However,
we will provide copies to the Action Official.

The Elementary and Secondary Education Act of 1965 (Act), Title I, Part A, Section 1115, as it
relates to targeted assistance schools, states that a local education agency may use funds received
only for programs that provide services to eligible children under subsection (b) identified as
having the greatest need for special assistance. Therefore, the District cannot expend Grant
funds on goods and services not directly related to serving eligible children. In addition, the
District must maintain records to document that it expended funds on goods and services only for
.eligible children. During the 1997/98 award year, the District used Grant funds to pay for goods
and services that were unrelated to the Grant objectives and could not provide adequate support
for other goods and services.


                                 400 MARYLAND AVE., S.W. WASHINGTON, D.C 20202·1510
           Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
The Act, Title I, Part A, Section 1120A(b)(1), states that: “[A] State or local education agency
shall use funds received under this part only to supplement the amount of funds that would, in
the absence of such Federal funds, be made available from non-Federal sources for the education
of pupils participating in programs assisted under this part, and not to supplant such funds.”
During the 1997/98 award year, the District provided State and/or local funding for all day
kindergarten services to all children and, in the absence of Federal funds, would have had to
provide State and/or local funding for the salaries for 13 kindergarten teacher assistants. In
addition, Grant eligibility determinations were not made until the end of the kindergarten year.
The District did not report any eligible Grant children in kindergarten in its Title I Performance
Report for the 1997/98 award year.

Office of Management and Budget (OMB) Circular A-87, “Cost Principles for State, Local, and
Indian Tribal Governments” establishes the principles and standards for determining costs for
Federal awards carried out through grants, cost reimbursement contracts, and other agreements.
OMB Circular A-87, Attachment B – Selected Items of Cost, provides the principles to be
applied in establishing the allowability or unallowability of certain items of cost. Attachment B,
Section 11, Compensation for Personnel Services, addresses services paid for wages, salaries,
and fringe benefits. The costs of such compensation are allowable to the extent that they satisfy
the specific requirements of OMB Circular A-87 and that the total compensation for individual
employees is determined and supported as provided in Subsection h.

Attachment B, Section 11, Subsection h, addresses support for salaries and wages regarding time
distribution. Subsection h (3) indicates that where employees are expected to work solely on a
single Federal award, charges for their salaries and wages will be supported by periodic
certifications that the employees worked solely on that program for the period covered by the
certification. These certifications will be prepared at least semi-annually and will be signed by
the employee or supervisory official having first hand knowledge of the work performed by the
employee. Subsection h (4) indicates that where employees work on multiple activities, a
distribution of their salaries or wages will be supported by personnel activity reports or
equivalent documentation, which meets the standards in subsection h (5). Subsection h (5)
addresses the standards for personnel activity reports. Subsection h (5) generally indicates that
the activity reports must (a) reflect an after-the-fact distribution of the actual activity, (b) account
for the total activity, (c) be prepared at least monthly and coincide with one or more pay periods,
and (d) be signed by the employee. During the 1997/98 award year, the District did not obtain
periodic certifications or personnel activity reports to adequately support personnel
compensation charged to the Grant. The District would need such support because some
employees worked on more than one Federal award and some activities that employees worked
on were not Grant related and therefore were unallowable.

Using Grant funds to supplant State and/or local funds and purchase goods and services
unrelated to the Grant objectives reduces the amount of Grant funds available to provide services
to eligible children. This could have an adverse affect on the State’s ability to ensure children
meet the student performance standards expected of all children. Further, without adequate
support for personnel compensation or other goods and services, we were unable to accurately
determine the correct amount that the District should have charged the Grant.




                                                   2

RECOMMENDATIONS

We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education instruct the State Education Agency to:

       1. 	    Return $110,593 in Grant funds the District used to supplant State and/or local
               funding for the 13 kindergarten teacher assistants in the all day kindergarten
               program,

       2. 	    Return $10,167 applicable to questioned expenditures unrelated to the Grant
               objectives,

       3. 	    Return $338,571 applicable to unsupported expenditures or provide support
               acceptable by the U.S. Department of Education (Department), and

       4. 	    Obtain periodic certifications and/or personnel activity reports in the future.

AUDITEE COMMENTS

The District concurred with recommendations 1, 2, and 4. The District agreed to return
$110,593 in questioned Grant funds used to supplant State and/or local funding for 13
kindergarten teacher assistants in the all day kindergarten program; $10,167 applicable to
questioned expenditures unrelated to the Grant objectives; and to obtain periodic certifications in
the future. In addition, the District replaced the Title I Director and provided in depth training on
Title I rules and regulations. The District did not believe that it supplanted Title I funds but was
unable to gather sufficient documentation to show that it did not supplant State and/or local
funding from other sources.

The District did not concur with recommendation 3 applicable to $338,571 in unsupported
expenditures. The unsupported expenditures related to salaries of $197,458; fringe benefits of
$73,436; purchased services of $61,176; and supply costs of $6,501.

As it relates to salaries, fringe benefits, and purchased services, the District acknowledged that it
was unaware of the requirement for certifications and understands that the costs for employees
without certifications might be disallowed. However, the District provided certifications for 8 of
29 staff and other documentation as support.

As it relates to supply costs of $6,501, the District was not able to gather enough specific
documentation to support the amount of supplies. However, the District agreed to return $4,336
because it believes Title I children utilized a portion of these supplies. The District prorated the
unsupported supplies cost based on 400 Title I children enrolled at buildings with enrollment
totaling 1,201 children.




                                                  3

OIG RESPONSE

For recommendation 3, as it relates to salaries, fringe benefits, and purchased services, we
reviewed the certifications and other documentation provided as support. After our review we
concluded that the certifications were not contemporaneous because they were signed in April
2002. We had previously reviewed most of the other documentation provided by the District as
support during our fieldwork. Therefore, we have not changed our opinion. We will provide the
certifications and other documentation provided by the District to the Action Official.

For recommendation 3, as it relates to supply costs, the District did not provide any additional
supporting documentation. Therefore, we have not changed our opinion.

                                      BACKGROUND
The Elementary and Secondary Education Act of 1965, Title I, Part A, provides supplemental
financial assistance to local educational agencies through State educational agencies to improve
the teaching and learning of children who are at risk of not meeting challenging academic
standards and who reside in areas with high concentrations of children from low-income
families.

A targeted assistance school, primarily addressed in Section 1115 of Title I, Part A, is one that
receives Part A funds, yet is ineligible or has chosen not to operate a Title I schoolwide program.
The term "targeted assistance" signifies that the services are provided to a select group of
children–those identified as failing, or most at risk of failing, to meet the State's challenging
content and student performance standards–rather than for overall school improvement, as in
schoolwide programs. Like schoolwide program schools, the goal of a targeted assistance school
is to improve teaching and learning to enable Part A participants to meet the challenging State
performance standards that all children are expected to master. To accomplish this goal, a
targeted assistance program must be based on effective means for improving achievement of
participating children; use effective instructional strategies that give primary consideration to
extended-time strategies, provide accelerated, high-quality curricula, and minimize removing
children from the regular classroom during regular school hours; coordinate with and support the
regular education program; provide instruction by highly-qualified and trained professional staff;
and implement strategies to increase parental involvement.

A targeted assistance school differs from a schoolwide program school in several significant
respects:

   • 	 Part A funds may be used in targeted assistance schools only for programs that provide
       services to eligible children identified as having the greatest need for special assistance.
   • 	 Part A funds must be used for services that supplement, and do not supplant, the services
       that would be provided, in the absence of the Part A funds, from non-Federal sources.
   • 	 Records must be maintained that document that Part A funds are spent on activities and
       services for only Part A participating students.




                                                 4

One of the primary differences between schoolwide program schools and targeted assistance
schools is the requirement that the latter may use Title I, Part A funds only for programs that
provide services to eligible children identified as having the greatest need for special assistance.
Targeted assistance schools, therefore, may not provide services to all children in the school or in
particular grades.

For the 1997/98 award year, the District received a State approved Grant budget of $794,766.
During the award year, the District charged $510,023 to the Grant related to salaries, fringe
benefits, supplies, and purchased services. The District did not spend the remaining $284,743
budget amount during the award year.


             AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of our audit was to determine whether the District used the Grant funds during the
1997/98 award year to (1) provide services to eligible children and (2) supplement, not supplant
the regular education services normally provided. To accomplish our audit objective we:

1.     i	nterviewed District, State, and Department officials;
2. 	   reviewed Grant application and approval documentation;
3. 	   reviewed relevant accounting records and available supporting documentation maintained
       by the District;
4. 	   reviewed audit reports prepared by independent Certified Public Accountants under OMB
       Circular A-133 for the years ended June 30, 1997, 1998, and 1999; and
5. 	    reviewed the 1997/98 Title I Performance Reports submitted by the District.

To achieve our audit objective, we relied in part on computer-processed data contained in the
District’s database. We performed a limited reliability assessment by comparing selected
computer data to source records. We also relied on work performed by Independent Public
Accountants under OMB Circular A-133. Based on the work performed, we concluded that the
data was sufficiently reliable to be used in meeting the audit objective.

We reviewed the District’s Title I Grant salary expenditures for the award year ended 1998,
which totaled $201,036 for 18 District personnel. We judgmentally tested a sample of 3
employees’ salaries totaling $115,338 to determine whether the expenditures were accounted for
accurately and properly supported. We judgmentally reviewed $48,127 of the District’s Title I
Grant fringe benefit expenditures for the award year ended 1998, which totaled $74,493 for 8
District personnel. We reviewed health insurance costs for 2 employees and recalculated the
expenditures for retirement, employer social security, and employer workmen compensation for
all 8 employees to determine whether the expenditures were accounted for accurately and
properly supported. We reviewed the District’s Title I Grant purchased services and equipment
repair expenditures for the award year ended 1998, that included $110,593 for 13 kindergarten
teacher assistants; $60,376 for 11 teaching aides; $20,309 for other services; and $118 for
equipment repair expenditures, which totaled $191,396. We judgmentally selected a sample of
13 kindergarten teacher assistants’ salaries totaling $110,593; 11 teaching aides’ salaries totaling
$60,376; and 5 other services expenditures totaling $5,525 to test whether the expenditures were




                                                 5

accounted for accurately and properly supported. We reviewed the District’s Title I Grant
supply expenditures for the award year ended 1998, which totaled $43,098. We judgmentally
selected a sample of expenditures totaling $36,169 to test whether the expenditures were
accounted for accurately and properly supported.

Details for the results of our testing are shown in Attachment 1, Schedule of Accepted,
Questioned, and Unsupported Costs.

We conducted our audit at the District’s offices in Mount Clemens, Michigan, from March 20,
2001, through May 4, 2001. We had follow-up contact with a District official on March 6, 2002.
We performed our work in accordance with government auditing standards appropriate to the
scope of review described above.

                 STATEMENT ON MANAGEMENT CONTROLS

We reviewed the District's management controls over its administration of the Grant.
Specifically, we reviewed controls over requesting, accounting for, and using Grant funds. We
performed our assessment to determine the level of risk exposure that significant noncompliance
with the laws and regulations occurred, and to determine the extent of testing needed to
accomplish the audit objectives.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed significant management control weaknesses that adversely
affected the District’s ability to administer the Grant. These weaknesses and their effects are
discussed in the Audit Results section of this report.

                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Department of Education
official, who will consider them before taking final action on the audit:

                      Susan Neuman, Assistant Secretary
                      Office of Elementary and Secondary Education
                      Federal Building No. 6
                      400 Maryland Avenue, S.W.
                      Room 3W315, Mail Stop 6100
                      Washington, DC 20202




                                                6

OMB Circular A-50 directs Federal agencies to expedite the resolution of audits by initiating
timely action on the findings and recommendations contained therein. Therefore, receipt of
your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C.§5S2) reports issued by the
Office of Inspector General are available, ifrequested, to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act.

                                               Sincer~

                                                                     -

                                                 I	   ."

                                               Assistant Inspector General for Audit


Attachments

cc: 	 Superintendent of Public Instruction
     Michigan Department of Education




                                                7

                                                                                            Attachment 1
                                                                                              Page 1 of 2

        SCHEDULE OF ACCEPTED, QUESTIONED, AND UNSUPPORTED COSTS

        CATEGORY                 ACCEPTED           QUESTIONED UNSUPPORTED                 TOTAL
  Personnel
    District Salaries (1)(2)                $0              $3,578            $197,458      $201,036
   Purchased Services (3)                    0             110,593                   0       110,593
      Total Personnel                        0             114,171             197,458       311,629
  Fringe Benefits (1)(2)                                     1,057              73,436        74,493
  Purchased Services (4)(5)            16,159                3,350              61,176        80,685
  Supplies (6)(7)                      34,415                2,182               6,501        43,098
  Equipment Repair                        118                    0                   0           118
          TOTALS                      $50,692             $120,760            $338,571      $510,023


(1) 	   The questioned amounts represent salaries and fringe benefit costs for activities that did not
        relate to Grant objectives. The District used Grant funds to pay for 100 percent of a
        secretary’s salary and fringe benefits when the secretary stated only 75 percent of her
        activities were Grant related. This is in violation of the Act, Title I, Part A, Section 1115.

(2) 	   The unsupported amounts represent salary and fringe benefit costs that lacked support to
        show that activities performed were related to Grant objectives. The District did not obtain
        periodic certifications or personnel activity reports for employees that worked on the Grant.
        OMB Circular A-87 requires periodic certifications and/or personnel activity reports to
        support salaries and wages charged to the Grant.

(3) 	   The questioned amount represents wages charged to the Grant to pay 13 kindergarten teacher
        assistants. The District expanded its kindergarten program from a half day to a full day.
        Based on documents provided, the District’s general plan was to assign each kindergarten
        teacher three assistants for approximately 60 children. The 60 children were divided into two
        groups of 30 (Group A and Group B). In the morning, the kindergarten teacher and one
        assistant worked with Group A and two assistants worked with Group B. In the afternoon,
        they switched groups. The teacher/assistant worked with Group B and the assistant/assistant
        worked with Group A. The assistant/assistant team would teach using the regular teacher’s
        lesson plan.

        District records indicate that there were five kindergarten teachers. Three were assigned nine
        assistants and rotated as describe above. One was assigned two assistants and rotated as
        described above. One was assigned one assistant and they stayed with the same children all
        day.

        Based on interviews and available documentation describing the District’s implementation of
        the all day kindergarten program, the District supplanted State and/or local funding in
        violation of the Act, Section 1120A(b)(1). This is particularly evident with the
        assistant/assistant group that used the regular kindergarten teacher's lesson plan. In addition,
        one of the assistants provided services to all children as a regular kindergarten teacher would.
        The District must use State and/or local funding to provide the all day kindergarten program
        to all children prior to using Grant funds to supplement the program. The District did not use
        State and/or local funds to provide services to all kindergarten children before using the
        Grant program funds. Therefore, the Grant funds were used by the District to supplant State
                                                                                            Attachment 1
                                                                                              Page 2 of 2

        and/or local funds, which should have been used. The reasons for implementing the all day
        kindergarten seem to be financially motivated. For example, the District expanded the
        kindergarten to help reduce the deficit it faced, reduce layoffs, reverse declining enrollments,
        and maximize use of classroom space.


        The all day kindergarten program was open to all children and the District did not make
        Grant eligibility determinations until the end of the kindergarten year. The District did not
        report any eligible Grant children in kindergarten in its Title I Performance Report for the
        1997/98 award year.


(4) 	   The questioned amount represents the costs for purchased services not directly related to
        serving eligible Grant children, which is in violation of the Act, Title I, Part A, Section 1115.
        The District used Grant funds to pay for registration and travel expenses for several District
        employees to attend a North Central Association conference. None of the District
        participants attending were employees related to Grant activities. A District official informed
        us that the conference was attended as part of the District’s planned move to a schoolwide
        Grant program the following year. Therefore, the costs associated with the conference were
        not related to helping eligible Grant children meet the student performance standards.


(5) 	   The unsupported amount represents costs for purchased services related to 11 teaching aides
        and a workshop. The District did not obtain periodic certifications or personnel activity
        reports needed to show that the work performed by teaching aides was Grant related. In
        addition, the District could not provide adequate support to demonstrate the Teacher &
        Support Staff Workshop was Grant related. OMB Circular A-87 requires periodic
        certification and/or personnel activity reports to support salaries and wages charged to the
        Grant. In addition, without adequate support for the workshop attended, we are unable to
        determine whether the District complied with the Act, Title I, Part A, Section 1115.


(6) 	   The questioned amount represents expenditures for supplies that did not relate to the Grant
        objectives, which is in violation of the Act, Title I, Part A, Section 1115. The District
        purchased a software package. A District official informed us that the software was
        purchased as part of the District’s planned move to a schoolwide Grant program the
        following year. Therefore, the costs were not related to helping Grant eligible children meet
        the student performance standards.


(7) 	   The unsupported amount represents supply costs charged to the Grant without adequate
        documentation to show the costs were related to the Grant objectives. For example, the
        District purchased 500 Science Fair ribbons for Seminole Elementary School. However,
        there were only 156 eligible Grant children at Seminole. There were also expenditures for
        scholastic readers in math, science, and reading that appear to benefit both Title I and non-
        Title I children. Without adequate support we are unable to determine whether the District
        complied with the Act, Title I, Part A, Section 1115.
                                                                                                                     Attachment 2
                                                                                                                       Page 1 of9




,~._~~._ _ _ _ _ _ _......._.;..._ _                    Venkat R. 8ar!pelll. Assl&t8nt Superintendent for SUelness and Operations
                                                       rJr~:>a~6~cru~. ext. 1290· Fax Number (586) 46~5569




   Richard J. Dowd
   Regional Inspector General for Audit
   Department of Education - Office of Inspector General
   111 North Canal, Suite 940
   Chicago, illinois 50606·7204

    RE: 	   Mount Clemens Community Schools Draft Audit Report for the July 1, 1997
            through June 30, 1998 award year
            Control Number EO.QIGlA05-B0011

    Dear Mr. Oowd:

    This letter is in response to the Oraft Audit Report sent by Thomas A Garter, Assistant
    Inspector General for AUdlt,l3l1dre.ceived in our office April 11. 2002. Mr. Carter asked we
    review th~ report and provide written comments on the findings and recommendations.

    We ara very proud of our. District and the services we provide to our students. We have
    wonderful staff that genuinely cares about our. children. We feel that we make a good faith effort
    and strive to follow all fedElt'aI and state regulations related to our grants. We continuously look
    for ways to improve antUeel we have made tremendous strides in many areas, including our
    processes surroundingthl'! monitoring of our federal grant activities. Chiidren who were failing
    or most at risk of failing were identified fOr the 1997-1998 fiscal year and TiUe I services were
    provided specifically to this groupt;)f identified children. Returning 100% of the monies
    expended/charged to th6 TlUe I grantfpr that year would be like saying these children were not
    served. Therefore, we must ~ctfully state that we do not concur with all of your findings and
    recommendations.                   .

    The second paragraph under 'Audit,Results' indicates that we did not provide you with a
    management representatiOn tetter. We (tId provide you with a management representation
    letter on your last day qt." . , "ill.,.... Po
                                                ... 1':." a.·d. . ministration building. Subsequently, we noted that
    the letter was left behinf#         ' ,w~mailed Itto you. Attached is a copy of the management
    representation letter wii            you. 'Also attached is our response to each of your
    Reco:nmendaUons andSCheduteofA~ted, Questioned and Unsupported Costs.
                                 <   '~.        .



                                                        Respectfully submitted,


                                                        ~
                                                        Assistant Superintendent for Business Services

    cc:    Dr. T. C. Wallace, Ji.
    Superintendent of Schools




             Moon! Clem$n$ ~1Iy~1)~ttlc;I. J67 Cass htenu$ • Mount Clemens. M1chigan 48043-2291 

                         Fully ,y:~tedltIidI.I~ Itii;'~ C1mtral Association 01 Colleges and Schools 

                                       ."<
                                                                                                 Attachment 2 

                                                                                                   Page 2 of 9 





Mount Clemens Communi ty Schools
Title I, Part A, Targeted A ssistance Schools Grant
July " 1997 through June 30, 1998
Control Number ED·OIGIA05·B0011


Respon se to 'Recommendations' outlined on page 3 of your letter and the
' Schedule of Accepted, Questioned and Unsupported Cos ts' attachment:


   »    Recommendation #1, Cost Schedule (3)
        Response - While we believe that the District did not supplant ntle I funds, we
        were unable to gather sufficient documentation to show the District did not
        supplan t statellocal funding from other sources. Therefore, we agree to retum
        $110,593 of reimbursed ntle I funds.

        Correction Action - We recently replaced the Tille I Director with an individual
        from within the District to oversee ntle I activities. She has met with state
        officials and attended in depth training on ntle I rules and regulations. She is
        revising our documentation process.

   »    Recommendation #2, Cost Schedule (1)
        Response - We were unable to obtain specific time/activity records to
        substantiate 100% of the secretary's salaries and related fringe benefits.
        Therefore, we concur with your recommendation to return the 53,578 and $1 ,057
        reimbursed for salaries and fringe benefits, respectively.

        Correction Action - The District has implemented a policy, beginning with the
        2001/2002 fiscal year, whereby all Title I employees, or their supervisor having
        first hand knowledge of the work perfonned by the employee, must sign a
        certification semi-annually indicating the time spent on the program.

    »   Recommendation #2, Cost Schedule (4 & 6)
        Response - Based on guidance from certain state officiats, it was our
        understanding that costs associated with moving to a Sdlootwide program were
        allowable. It was not the District's intention to incur costs that were not related to
        helping eligible children. We believe our Schoolwide program, which was
        implemented subsequent to the 1997/1998 school year is successfully helping
        our children. Therefore, we concur with your recomme ndation to return the
        53,350 reimbursement for purchased services and $2, 182 reimbursement for
        supplies.

        Correction Action - The District official overseeing the Title I program has
        attended conferences related to ntle I and will continue to be educated on
        allowable costs, programmatic activi ties, etc.

    »   Recommendation #3, Cost Schedule (7)
        Response · We were unable to gather enough specific documentation to support
        the amount of these supplies used by Title I students. However, ntle I children
        did utilize these supplies. Therefore, given there were approximately 400 ntle I
        students at the particular buildings of 1201 students, we feel it is reasonable to
        prorate the $6,501 of unsupported costs, which equates to an accepted amount
        of 52,165 and we will return $4,336.
                                                                                             Attachment 2 

                                                                                               Page 3 of 9 





     Correction Action - The District official overseeing the nile I program has
     attended conferences related to ntle I and will continue to be educated on
     allowable costs, programmatic activities, etc,

}>   Recommendation #3, Cost Schedule (2)
     Response - We believe that the documentation we provided in this
     correspondence supports the salarylwages and related fringes for individuals
     who performed services for nile I children, Your letter indicates lhat charges fOf'
     their salaries and wages related to employees who wor1< solely on a single
     Federal award, will be supported by periodic certifications signed by the
     employee or supervisory official. We strive 10 comply with all federal
     requirements and we were unaware of the requirement for certifications.

     Our understanding, in part, is based upon the 1997/1998 Michigan School
     Auditing Manual, Section lit, (issued by the Michigan Oepartment of Education)
     the following is required (see attached excerpts):

         District considerations on page 3.5, item 3 addresses allowable expenditures
         related 10 "lime/salaries' and does not indicate that certifications must be
         obtained

         Audit considerations on page 3.5, item V.A.1.b. and c. indicates expenditures
         must be consistent with the approved application and that staff salaries are
         supported by schedules Of' time logs documenting time spent on nlte I
         activities

     For staff spending 100% of lheir lime servicing nile I children during 1997/1998,
     they were hired in that capacity in prior years. Annually, the nile I application
     and budgel is submitted detailing the staff that will work on that program. We
     believe the contemporaneous evidence we have provided supports the
     salarylwages and related fringe benefits. We have worked diligently to gather as
     much supporting documentation as possible for the costs charged. Please see
     the attached schedule of specific individuals, which you initially provided. FOf'
     each employee for whom we are providing evidence that they spent 100% of
     their time providing nile t services to TIlle I children, we have listed a 'reference
     number'. This number refers to the additional packets of information we have
     enclosed. In addition, we have provided a statement tilled "nile I Program
     Description" from one of the building principal's during the year in question.

     The information packets include certifications signed by the employee or their
     direct supervisor with knowledge of the work performed by the employee. The
     signers acknowledge the time spent on Tille t and are aware that if any statement
     is untrue, it may be a violation of law. We are also sending copies of the
     employee logs that were filled out by the teachers and logs that were filled oul
     daily by the teacher aides. The teacher aides also have a schedule of the time of
     day they entered each class and a list of the Title I students served in those
     classrooms. In addition, we enclosed personal affidavits from the two teachers
     on the listing stating that 100% of their lime was spent serving nile I students.
     We feel the salaries and related fringe benefits are supported by the certifications
     and other contemporaneous evidence.
                                                                                            Attachment 2 

                                                                                              Page 4 of 9 





    Please note that if an employee does not have a 'reference number', we were
    unable to gather supporting documentation, and, in most of these cases, the
    individual is no longer employed by the District and was not available to complete
    a certification. While we are confident these individuals performed ntle I
    services, we understand that costs for these particular Individuals might be
    disallowed .

    Correction Action - We recently reptaced the nile I Director with an individuat
    from within the District to oversee Tille t activities. She has met with state
    officials and attended in depth training on Tille I rules and regulations. She is
    revising our documentation process.

»   Recommendation #3, Cost Schedule (5)
    Respons& - Similar to the immediately proceeding item, we have worked
    diligently to gather supporting documentation for the costs charged. Your cost
    schedule item (5) is also for individual's time spent servicing Tille I students, but
    they were Individuals provided by an outside contract employee service
    company. Please see the same schedule as above, which includes the specific
    names of individuals. Again, for each person for whom we are providing
    evidence that they spent 100% of their time providing Title I services to Title I
    children, we have listed a 'reference number'. This number refers to the
    additional packets of information we have enclosed. Our documentation includes
    certifications signed by the specific person or their direct supervisor with
    knowledge of the work performed by that person. The persons signing the
    certifications know that if any portion is untrue, this may be a violation of law. We
    are also sending copies of the logs maintained by the teachers and logs that
    were filled out daily by the teacher aides. The teacher aides also have a
    schedule of the time of day they entered each class and a list of the Title I
    students served in those classrooms. We feel the purchased service costs for
    th e persons indicated are supported by the certifications andlor other
    contemporaneous evidence.

    Please note that if a person does not have a 'reference number', we were unable
    to gather supporting documentation and, in most of these cases, the individual is
    no longer providing services to the District and was not available to complete a
    certification. While we are conrldent these individuals performed Tille I services,
    we understand that costs for these particular individuals might be disallowed.

    Correction Action - We recently replaced the Title I Director with an individual
    from within the District to oversee Tille I activities. She has met with state
    officials and attended in depth training on Title I rules and regulations. She is
    revising our documentation process.
                                                                                                                       Attachment 2 

                                                                                                                         Page 5 of 9 



05-01-2002   01 :1 1        FrgrPlan tl ' Iilcrln,LLP                                         T-5;3   P.DDlIDOJ     F-OU




                                                                       ctece:.rfu...,
                            11.: diIRict DlUltesablisb.pi';)(·.'1ICII rot  wi... i,.j,C
                            ~. 1be 4iIIr'i:I is ree:pwsible for tkO""P1rioc ita ooa:lpmbUl'y IlamI
                             at __ DID ~ two}'Bln.

                             ~AbUity iI iii' !IIiIl',..' by COiilpIlio& dill per pupil expenc!lm,. for
                             iaItructimIIl aff Oldie iDIu..:tioDll ~ ndos bet1IICCIl eqaivaku: &Ode
                             spmlCbooh widlia die cHmieL. 1'be varicioD ~!he...,. pi!' ~               . ~
                             ~Itdimn:s or 1be ~ saff/pIIpll tadoI rue ... buiIdi!Ip bema CClIIIpnwl
                             DII:J DOC CIIIC.:II0 p:roas..

                             Rda'eacc: VolllmD 34 a:R! See. 200.63 .(1995)

                       3.    ~ . . wodr:::iIIz: on. Tille I amt be .1ocmwi."                 for co-fImIkd stiff.     • /'
                             Aa;:cpIIbk dICChocIs iuWdc Wl'itIn ............In if toIIoM:d 011.. ~ basis (c....      .It!!'
                             IeICIIcn IDd paui()l. . . .Dla1s) (W p!IiocIE lCfl I .""" azapIa lop fbr aafI'
                             wtw:. TJdellimc it variaIIk (0.,., 4lreca:a. ICCftQIU, CC'WIIDrinn).

             v. AUDIrCQNSIDEBA"nONS
                 on. fulIowt:ne: ~Isccd IDIfil proccdwa an: ... to lie LIOiiiideitId. aD. ~ c.- •
                 .......... txpro6:uioall)"", • RIIIIa', *-PiV' eO,,_; aIoD&" ItDlIiIItDd ill
                 tbIi CXtIIIIJ.2I;,.... ~.. _10 _ d&.." pe:r:fIxm.c:ompI ..... plUCCiIbtt bL ..
                 cMc:!nr mil 06cd" . . . . .1o aocardII:D witb
                 JIIic1e1 kn•                           .
                                                                       po' .
                                                                 _1 .s"I,g                     mel'"
                 'In IddIIiaIlIID tile re.r.l ,..ru RqIIi:I...... 1I'I"ktN" to all fIIcIIaJl:y 6mIW pqJ Mil,
                 aaalD ~ .. .-'·'''e 1*........ to _ v...l c:ontnd AiLtIati...t a . .1i                  •

                  Willa JPDCi&c: .''''.''''._ u:qutt_ arc IS~:
                 A.    ~ot          __

                       1. lterinr apnwl""IC...n. .... lIqIpOldl!g ....... ML:m to-.re:

                             ... 111 ..... wi 1M.' sc:bools. f8tIIII brte beI:a 1IIed Ix Ktl.Jdw Jlped lID
                                 .... c:biI*al Wbo ... 6.iIiDs or ... Mlilk of6llDll«" ~ StIle
                                 p:wfte".,w .....hu...  n-cc:bildralbaw~id              "fIed_tssI"       brIM4
                                 0II1oc1l.      d ' ma.d 10 . . con e ' """m+: c:urriI:WaaL DiIrere:aI: chDdreo
                                . , be ....... awr die COIDD ollbl,... . . . . lie i"e*.ifbt tbmuP
                                ....... ~U..
                                           , _ _L


                             b. BIpi'I!'III,,'esare'''d' . ,wtdl_~"fc:MInn



             .097l1li                                                                                       111-3.7
                                                                                                               Attachment 2 

                                                                                                                 Page 6 of 9 


                                                          SU   (II   0115          HIS      , .QOt/OOI   HAl
         F. arf'hnl.I IIo ' ln,ll!




  · 1. bvnMt:qa;j-.llJ-alol1
       ~ ................. 01 low bxmi: famfUa:,
                                                   1""·'_1:11'.- 1M c_bniD&_
    1. ltMtw ~ of t.mds to Moob IIx ,.""..p;,w. wiIh 11Ga 1 fmmda.

c. Ma«rNna, Lt:teI of Efl'ort, mSiof tulN4oioC .............,


    1. Mai . . . . . o(dItJrt Is ~ . die se:. k¥eL

    3, RlI9kIw"do-'1O' tirAJp............ .u.1D_d.-W. . . . ,....
       ~ wqUea:t6:&t. t..:t.met.                             .



         a. Dw+ .,IM ...... Ibe dILbKt . . IMCIbIWwd ptOClII6aM lOr IS :, ID:iIIiIw . .
             elnc. . . . . . . . . . . . iIiI;y.


         b. Dew ..... trlbtdilcdct 10 tmi'...... " .......,                 -way CWO~
         eo""        I    if_dUldct'lanp..scm~ ..........~.~


D. 1tepxciQ&' i '             '.
    1. 'Ibcrc·IN" Wc:al fI:aIacIIl !IpCICU fbr tbllllllilar ID "IMiMr.   ftPD'II   ao-ew:r.


         _.
       ftW. . . . . . SaID 8aalclbeCllCd '0'·.... wtdl_1JIdal fiam:IaI RPD""
       ~l~

         V.m, ..        Nf(Im;", wtdldl!lrkt cJeIaiI t-udIlI!d . . eQonwim tJl~
         . . . . . . . npoItI illIiA*"fCi&, ~ 111& JlI..4044 ~ Bq t . . . .


    1.   ~....
         AIIIHtbIc l4aIIII _
                             'he rcpul. . . . . . o;aa be . . . . iI. II.-
                                  BaJIItiI, 1OZ2. !IaIoa. VII. Part A.
                                                                             V......,.   S;bo,aI


    5. Iflbil: prtIIDIIl . . . . . IIIIIiIcIn.,. . . . . . to _ . . SpeW. Tc. II1II4
       ProriU.- appIbbliDlIO'" pro.., u "'h' '"" 1Dpm. f below.
                                                                                                                           Attachment 2
                                                                                                                             Page 7 of9




e---,--...........-,-;~--...,,-__                         ,,
                                                                ceeelia Weathers.
                                                                (586) 469·6100,
                                                                                    As lstan1tl$\i~

                                                                                  ext. 1214
   _ClI                                          'Title 1 

                                            Program Description 

                                                       1997-1998 

                                                      School Year 


          For the 1997~98 school year I              was
                                             an elementary principal ip. the~ll1lt
          Clemens Community School District. During,that year the:el¢tU~ .
          buildings in the District were aU Title 1 with a "targeted asSi$tatice'i>
          program.

          The following is a brief description of how the Title 1 program was
          implemented.                                                 .

          In the spring of 1996 a Needs Assessment was done. Studenl$ with the",; 

          greatest need in the areas of Reading and/or Math wereidentifi~dr:~:'fitIe 1 

          list was made identifying the students most in need of serv.i,ce.. . " ".. ' 


          A Title 1 coordinator'and a group ofTitle 1 instructional aidea m~itl~ed a 

          list ofstudents and wen:tintothe classrooms using the "PuSh';in,~!iPlo~l';to 

          provide service and support to the identified Title 1 studentS. ';,;¥ 

          were assisted with schedules and lesson plans by the Title~,. "          ;, 

          Ms. Joann Angileri was the coordinator at Seminole HI > 

          Janet Stanley was the coordinatOr at Washington Elem 

          principals met weekly with~e Title 1 staffin order to 

          the students who werebeing:tUgetOO for assistance. 


            The "push-in" model allowed the aides to interact with 

            in their classroom envito$entThey were able to 

          . modify lessons for these Title l~. <­

           The Title 1 coordinator snperv~e<talreglliar
           students so that les!'!pm~'(~laibellll\)mt(jrt::dand acijm;te<1
           The principal and the .c:.l$EIt'Q01~lt€:acllle@.re m:ovided
           the students' progress.



              Mount eiemen, CqlnmunftY:Sch.ooIOI$ttk:1 ~16tC8$$.iutinue. M;)unt
                          R.!lIY,~iledbY;~~;Cen\ral
                                            .;     ..      .  AIIllQClali<>r\ (If COliegee end


                                                                                                 '~~>;;b;'$w!~k:   Ii;,;
                                                                                                                                 Attachment 2 

                                                                                                                                   Page 8 of 9 

      .7... _1 ____
--
-                                        --
                                         - -,- -__._-,--
                                                                         __
,                     DIr. _ _
                                                                     "' _ _ ," __ 'DIr_
                      .--                                                                             ,DIr_
                                                        ,   ~.-t15




                                ... ...
                      DIr. _ _                          '1..2IIHO .......... _ . _ _

•••
                                                      .__ __
                                                        !iI,.25IJIII", _ _ • _ _ , _ _




                      ---- _ ...-.................._--
                                                        1O,132M . . rw, ... _ - . . , . _
                                                        IOJ_ ... ,......._ .. _ _ , _ _


                                                      . __ ._­
                                           ~Q




                                                    -                                          ,
                                                            T.Q.W " ' _ _ 10 _ _ ' _ _
                                                            ~"'
                                                        "-Xl." .......... _             .. _ _ , __
•
"
                      - - _ . ....... .. _ - -
                                           ",.,"d·~"·}5     ,

                                                      .......... ---...- ...... -
                                           1,.77.a




                      ,--
                      ,_ -
                      --.~
                      '-'~




                      --.-
                            ._-       ---  T.l'"''
                                           '-3'0-:10
                                                      ..........      ---_
                                                                     ----
                                                                     ~--



                                                                     ----
                                                                     --_ -   _
                                                         ....................... ... -
                                                                           --_ -                 ~- ... -



                                                                             _
                      ,....wop-                                      - - _ .......... 1,1 ............... _
                            .....

                                                                               -
                                           UOII.NI




                                                                     --_ --__-
                                           I,"""                                                                     ... _
                      --.-
                      ---
                      ,_",...or..          6 .0' 5.00




                                                                     -_
                                                                     _        .....
                                                                              ..... _Iof     ....... ~-
                                                                                          ..........
                                                                                             .......
                                                                                          ........
                                                                                                     ~- ...          ...




                                                                                                 ~
                                                                                                            _
                                           " .:1$.0 1

                                                                                                                     .........
               ,-_
                                          .0.......
                                           •• 714.0'                                      ..........
                                                                                          ........................
               .-.-
                      r--.~
                       __

                                 .....
                                           ~.
                                           ""11'.12
                                          '0-'011.01'
                                                                                          ........
                                                                                    ................................ ...
                                            ="02
                                         ,.li~ll----~
                                          ".,5"'.     ... - - -

              ,--
"•
           -----                           ,~.
                                                         ~.
                                                         ,,~


                                                         ,-"


      --   ---   -       ,-
                  _:II'. ,-
                                                        2. ......
                                                        ~"
                                                        'U~
                                                        ,-"


"
       ---
       ---
       -..
        ,"""",""_,_   ~- ,----
                      T_ _ _

                      ~-
                                                                     NCA_._. . . . . . .. .
                                                                     NCA_ ..... _
                                                                     __IOD*-"'HCA_
                                                        ...... ... _ _ _ • _ _ MIl
                                                                                              .... ,--.,..
Attachment 1 

  Page 9 of 9 

